No. 21-

In the Supreme Court of the United States
MARCUS WALKER, PETITIONER,
v.
UNITED STATES OF AMERICA
CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29 and this Court’s Order of
April 15, 2020, all parties required to be served have been served with copies of the
foregoing PETITION FOR A WRIT OF CERTIORARI, via e-mail, this 22nd day of July
2021. All parties had previously consented to electronic service consistent with this Court’s
order of April 15, 2020.
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Ave., NW,
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217
I declare under penalty of perjury the foregoing is true and correct. Executed on July 22,
2021.

/s John P. Elwood
John P. Elwood
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
john.elwood@arnoldporter.com
July 22, 2021

